PROOF OF SERVICE
I do hereby certify that, pursuant to the provisions of Rule 29.4(a) of this
Court, I have served the within MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT on
counsel for Respondent by enclosing two copies thereof in an envelope, first class
postage prepaid, addressed in the following manner:
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
and depositing same in the United States Mail at Charleston, West Virginia on
November 6, 2020.
DATED this 6th day of November, 2020.

____________________________________
Jonathan D. Byrne
Appellate Counsel
Office of the Federal Public Defender
Southern District of West Virginia
Counsel for Petitioner

